             DEPARTMENT OF HEALTH AND HUMAN SERVICES                               Office of Inspector General
                                                                                     Office of Audit Services

                                                                                          REGION IV
                                                                              61 Forsyth Street, S.W., Suite3T41
                                                                                   Atlanta, Georgia 30303

                                             JUN 2 5 2009


Report Number: A-04-06-07009

Mr. Lanier M. Cansler, Secretary
Department of Health and Human Services
Adams Building, 101 Blair Drive
Raleigh, North Carolina 27603

Dear Mr. Cansler:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office ofInspector
General (OIG), final report entitled "Review of North Carolina's Accounts Receivable System
for Medicaid Provider Overpayments." We will forward a copy of this report to the HHS action
official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Pursuant to the Freedom ofInformation Act, 5 U.S.C. § 552, OIG reports generally are made
available to the public to the extent that information in the report is not subject to exemptions in
the Act. Accordingly, this final report will be posted on the Internet at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Mark Wimple, Audit Manager, at (919) 790-2765, extension 24 or through e-mail at
Mark.Wimple@oig.hhs.gov. Please refer to report number A-04-06-07009 in all
correspondence.
                                           Sincerely,

                                               llId~t"v<f
                                               Peter J. Barbera
                                               Regional Inspector General
                                                for Audit Services

Enclosure
Page 2 – Mr. Lanier M. Cansler


Direct Reply to HHS Action Official:

Ms. Jackie Garner, Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, Illinois 60601
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




REVIEW OF NORTH CAROLINA ’S
ACCOUNTS RECEIVABLE SYSTEM
   FOR MEDICAID PROVIDER
       OVERPAYMENTS




                    Daniel R. Levinson
                     Inspector General

                        June 2009
                      A-04-06-07009
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                                  EXECUTIVE SUMMARY

BACKGROUND

Section 1903(d)(2) of the Social Security Act (the Act) is the principal authority that the Centers
for Medicare & Medicaid Services (CMS) cites in disallowing the Federal share of overpayments
to providers. Section 9512 of the Consolidated Omnibus Budget Reconciliation Act of 1985
amended this section of the Act.

The Act allows 60 days from the date of discovery of an overpayment to recover or attempt to
recover the overpayment from a provider before the State must refund the Federal share of the
overpayment, whether or not it recovers the overpayment from the provider. The implementing
Federal regulations require States to refund the Federal share of overpayments on the Quarterly
Medicaid Statement of Expenditures for the Medical Assistance Program, Form CMS-64 report
(CMS-64) as an offset to expenditures for the quarter in which the 60-day period ends. We
defined this offset as an overpayment adjustment.

The Act also states that the Federal share of a Medicaid overpayment does not have to be repaid
to the Federal Government if the State is unable to recover the overpayment because the provider
filed for bankruptcy or went out of business, assuming that the State followed proper due
diligence during the 60-day period. If the State has reported an overpayment and subsequently
determines that the provider is bankrupt or out of business, the State may reclaim the
overpayment on the CMS-64. We defined these types of transactions as reclaiming adjustments.

For the audit period October 1, 2004, through December 31, 2005, the North Carolina
Department of Health and Human Services, Division of Medical Assistance (the State agency)
reported a total of $4,211,302 in overpayment adjustments and made reclaiming adjustments of
$697,030.

OBJECTIVE

Our objective was to determine whether the State agency reported Medicaid provider reclaiming
and overpayment adjustments in accordance with Federal requirements.

SUMMARY OF FINDINGS

The State agency properly reported reclaiming adjustments for previously reported overpayments
during the audit period. However, it did not report 749 Medicaid provider overpayment
adjustments totaling $816,806 and return the Federal share of $519,312 in accordance with
Federal requirements. This failure to report some overpayment adjustments also resulted in a
potential loss to the Federal Government of $17,557 in interest.

The failure to report some overpayment adjustments occurred because the State agency had
insufficient written procedures for reporting and writing off overpayments discovered by the
State agency’s Fiscal Agent and had an inadequate system for recording overpayments in a
timely manner.



                                                 i
RECOMMENDATIONS

We recommend that the State:

      include unreported overpayments totaling $816,806 on the CMS-64 and refund to the
       Federal Government $519,312 (Federal share);
      implement reporting and write-off procedures sufficient to ensure that overpayments
       discovered by the State’s fiscal agent are reported within 60 days;
      establish an adequate integrated accounting system that records, ages, and accurately
       reports all agency sources of overpayments on the CMS-64; and
      identify any overpayments that were not reported or were reported incorrectly following
       our audit period and refund any money due the Federal Government.

STATE AGENCY COMMENTS

In written comments to the draft report, the State agency concurred with our findings and
recommendations. The complete text of the State agency’s comments is included as the
Appendix.




                                               ii
                                                   TABLE OF CONTENTS


                                                                                                                                Page

INTRODUCTION..............................................................................................................1

     BACKGROUND ...........................................................................................................1
       Medicaid Program....................................................................................................1
       Medicaid Overpayments ..........................................................................................1

     OBJECTIVE, SCOPE, AND METHODOLOGY .........................................................2
       Objective ..................................................................................................................2
       Scope........................................................................................................................2
       Methodology ............................................................................................................3

FINDINGS AND RECOMMENDATIONS ....................................................................4

     OVERPAYMENTS NOT REPORTED ........................................................................4
       Federal Requirements ..............................................................................................4
       Overpayments Adjustments Not Reported ..............................................................4

     RECLAIMING ADJUSTMENTS .................................................................................5

     RECOMMENDATIONS ...............................................................................................5

     STATE AGENCY COMMENTS..................................................................................5

APPENDIX

     STATE AGENCY COMMENTS




                                                                      iii
                                   INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program
provides medical assistance to low-income individuals and individuals with disabilities.
The Federal and State Governments jointly fund and administer the Medicaid program.
At the Federal level, the Centers for Medicare & Medicaid Services (CMS) administers
the program. Each State administers its Medicaid program in accordance with a CMS-
approved State plan. Although the State has considerable flexibility in designing and
operating its Medicaid program, it must comply with applicable Federal requirements.

In North Carolina, the Department of Health and Human Services, Division of Medical
Assistance (the State agency) administers the Medicaid program. The State agency
contracted with a fiscal agent, Electronic Data Systems (EDS), to process and pay
Medicaid program claims. The State agency and EDS perform identification and
collection efforts of provider overpayments.

CMS requested that we review the State agency’s accounts receivable system for
Medicaid provider overpayments. An overpayment is a payment to a provider in excess
of the allowable amount.

Medicaid Overpayments

Section 1903(d)(2) of the Act, as amended by section 9512 of the Consolidated Omnibus
Budget Reconciliation Act of 1985 (COBRA), is the principal authority that CMS cites in
requiring States to refund the Federal share of overpayments to providers. Section
1903(d)(2)(A) states:

       The Secretary shall then pay to the State, in such installments as he may
       determine, the amount so estimated, reduced or increased to the extent of
       any overpayment or underpayment which the Secretary determines was
       made under this section to such State for any prior quarter and with
       respect to which adjustment has not already been made under this
       subsection.

The Act allows 60 days from the date of discovery of an overpayment to recover or
attempt to recover the overpayment from a provider before the State must refund the
Federal share of the overpayment, whether or not it recovers the overpayment from the
provider. The implementing Federal regulations require States to refund the Federal
share of overpayments on the Quarterly Medicaid Statement of Expenditures for the
Medical Assistance Program, Form CMS-64 report (CMS-64) as an offset to
expenditures for the quarter in which the 60 day period ends. We defined this offset as an
overpayment adjustment.



                                            1
For overpayments resulting from situations other than fraud and abuse, and other than
those that are identified through Federal reviews , Federal regulations (42 CFR § 433.316)
define the discovery date as the earliest of the following dates: (1) the date any Medicaid
agency official or other State official first notifies a provider in writing of an
overpayment and specifies a dollar amount that is subject to recovery, (2) the date a
provider initially acknowledges a specific overpayment amount in writing to the
Medicaid agency, or (3) the date any State official initiates a formal action to recoup a
specific overpaid amount from a provider without having first notified the provider in
writing.

An overpayment that results from fraud or abuse is discovered on the date of the final
written notice of the State’s overpayment determination that a Medicaid agency official
or other State official sends to the provider. Finally, for overpayments identified through
Federal reviews, CMS considers the overpayment as discovered on the date that the
Federal official first notifies the State in writing of the overpayment and specifies a dollar
amount subject to recovery.

Under certain circumstances, States are not required to refund the Federal share of
overpayments made to providers. Regulations regarding these exceptions are found in 42
CFR §§ 433.318 and 433.320 and in section 1903(d)(2)(D) of the Act, which states:

        In any case where the State is unable to recover a debt which represents an
        overpayment (or any portion thereof) made to a person or other entity on
        account of such debt having been discharged in bankruptcy or otherwise
        being uncollectible, no adjustment shall be made in the Federal payment to
        such State on account of such overpayment (or portion thereof).

Furthermore, the State may reclaim the Federal share of unrecovered overpayment
amounts previously refunded to CMS if the State submits documentation showing that it
has made reasonable efforts to recover the overpayments. We defined these types of
transactions as reclaiming adjustments.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency reported Medicaid provider
reclaiming and overpayment adjustments in accordance with Federal requirements.

Scope

We examined reclaiming and overpayment adjustments subject to the requirements of 42
CFR § 433 subpart F reported on the quarterly CMS-64s for the audit period October 1,
2004, through December 31, 2005. During our audit period, the State agency reported
reclaiming adjustments of $697,030 and overpayment adjustments of $4,211,302.



                                              2
We did not review overpayments due to recipient eligibility errors, third-party payments,
probate collections, unallowable costs recovered through per diem rate adjustments, or
administrative costs because these overpayments are not subject to 42 CFR § 433 subpart
F. Although cost settlements are subject to 42 CFR § 433 subpart F, these overpayments
were not part of our review because these settlements are handled through the Medicaid
cost report settlement.

We did not review the overall internal control structure of the State agency’s operations
or its financial management. However, we gained an understanding of its controls over
processing reclaiming and overpayment adjustments and for recording accounts
receivable. We performed our fieldwork at State agency offices in Raleigh, North
Carolina.

Methodology

To accomplish our objective, we:

        reviewed applicable Federal regulations and State guidance;

        gained an understanding of the State agency’s procedures for processing
         reclaiming and overpayment adjustments;

        analyzed CMS-64s along with supporting documentation pertaining to the
         reporting of Medicaid provider overpayment and reclaiming adjustments;

        reconciled the CMS-64s to the State’s accounting records;

        identified overpayment adjustments totaling $4,211,302 and identified reclaiming
         adjustments totaling $697,030 that were reported on the CMS-64 reports for our
         audit period;

        identified overpayments that were never reported on the CMS-64;

        reviewed reclaiming adjustments, totaling $212,972, or 31 percent of the dollars,
         and obtained and reviewed the supporting documentation;

        compared the date that the overpayment adjustments were reported on the CMS-
         64s with the date that the provider was notified to identify overpayment
         adjustments that did not meet the 60-day criteria;

        calculated through December 31, 2005, using the number of days between the
         actual and required reporting date, the potential loss of interest to the Federal
         Government for those overpayments that were not reported within the required
         period.1
1
 We calculated the potential interest lost using the applicable daily interest rate per the Cash Management
Improvement Act of 1990.


                                                      3
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.

                      FINDINGS AND RECOMMENDATIONS

The State agency properly reported reclaiming adjustments for previously reported
overpayments during the audit period. However, it did not report 749 Medicaid provider
overpayment adjustments totaling $816,806 and return the Federal share of $519,312 in
accordance with Federal requirements. This failure to report some overpayment
adjustments also resulted in a potential loss to the Federal Government of $17,557 in
interest.

The failure to report some overpayment adjustments occurred because the State agency
had insufficient written procedures for reporting and writing off overpayments discovered
by the State agency’s Fiscal Agent and had an inadequate system for recording
overpayments in a timely manner.

OVERPAYMENTS NOT REPORTED

Federal Requirements

Pursuant to 42 CFR §§ 433.312, 433.316, and 433.320, a State has 60 days from the date
of discovery of an overpayment to a provider to recover or seek to recover the
overpayment before refunding the Federal share to CMS. Discovery is defined as
notification to the provider that an overpayment exists and is due the State.

The discovery date is the beginning date of the 60-calendar-day period. The State must
refund the Federal share of overpayments at the end of the 60-day period, whether or not
the State has recovered the overpayment from the provider. The State must credit the
Federal share of overpayments subject to recovery on the CMS-64 submitted for the
quarter in which the 60-day period following discovery ends.

Overpayment Adjustments Not Reported

During the period October 1, 2004, through December 31, 2005, the State agency did not
report 749 overpayment adjustments identified by its fiscal agent in accordance with the
60-day reporting requirement. The overpayment adjustments totaled $816,806 ($519,312
Federal share).

The State agency processed overpayments identified through both its Controller’s Office
and its fiscal agent. Those overpayments identified by the fiscal agent that were not
subsequently offset against future claims were removed from the accounts receivable



                                            4
system maintained by the fiscal agent after 120 days with the State agency’s approval.
However, the State agency did not report these overpayment adjustments on the CMS-64.

Consequently, the State did not return the Federal share of overpayments totaling
$519,312 in accordance with Federal regulations, which also resulted in a potential loss
of interest of approximately $17,557 to the Federal Government as of December 31,
2005.

The State agency’s failure to report the overpayments identified by the fiscal agent
resulted from the State agency not establishing and implementing sufficient reporting and
write-off procedures. Additionally, the State agency did not have an adequate accounting
system to ensure that all overpayments were identified, recorded, and reported on the
CMS-64 in a timely manner.

RECLAIMING ADJUSTMENTS

The State made proper reclaiming adjustments to previously reported overpayments on
the CMS-64s during the audit period.

RECOMMENDATIONS

We recommend that the State:

      include unreported overpayments totaling $816,806 on the CMS-64 and refund to
       the Federal Government $519,312 (Federal share);
      implement reporting and write-off procedures sufficient to ensure that
       overpayments discovered by the State’s fiscal agent are reported within 60 days;
      establish an adequate integrated accounting system that records, ages, and
       accurately reports all agency sources of overpayments on the CMS-64; and
      identify any overpayments that were not reported or were reported incorrectly
       following our audit period and refund any money due the Federal Government.

STATE AGENCY COMMENTS

In written comments to the draft report, the State agency concurred with our findings and
recommendations. The State agency said that it had already returned $437,109 of the
$519,312 (Federal share). Before returning the remaining Federal share, it is
investigating the accounts receivable items to ensure that it has not already returned the
refund amount due.




                                            5
The State agency also said that it is coordinating a full review of its process, will
implement any additional procedures needed to eliminate these occurrences in the future,
and will correct any other errors found on the next CMS-64 report.

The complete text of the State Medicaid agency comments is included as the Appendix.




                                           6
APPENDIX
                                                                                                 APPENDIX
                                                                                                  Page 1 of 3




                          North Carolina Department of Health and Human Services
                                2001 Mail Sen'ice enter· Raleigh, ~oT(h Carolina 27699-2001
                                            Tel 919-733-4534 • Fax 919-715-4645
Beverly Eave Perdue, Governor                                                                        Lanier M. Cansler, Secretary



                                                        April 17, 2009




           Mr. Peter 1. Barbera
           Regional Inspector General for Audit Services
           US DHHS Office of Inspector General
           61 Forsyth Street SW
           Suite 3T41
           Atlanta, GA 30303

           Re: Reviewof orth Carolina's Accounts Receivable System for Medicaid Provider
           Overpayments eIN A-04-06-07009


           Dear Mr. Barbera:

           The North Carolina Department of Health and Human Services CDHHS) received
           your March 12, 2009 letter and the draft report entitled "Review of orth Carolina's
           Accounts Receivable System for Medicaid Provider Overpayments" [Audit A-04-06-
           07009].

           The report contained the following recommendations:

                   • Include unreported overpayments totaling $816,806 on the CMS-64 and refund
                   to the Federal Government $519,312 (Federal share);
                   • Implement reporting and write-off procedures sufficient to ensure that
                   overpayments discovered by the State's fiscal agent are reported within 60 days;
                   • Establish an adequate integrated accounting system that records, ages, and
                   accurately reports all agency sources of overpayments on the CMS-64; and
                   • Identify any overpayments that were not reported or were reported incorrectly
                   following our audit period and refund any money due the Federal Government.




                                 Location: 101 Blair Dri\-c • Adams Building· Raleigh, _ .c. 27603
                                         An Equal Opportunity / I\f/irmali\c Action Employer
                                                                              APPENDIX
                                                                               Page 2 of 3

Mr. Peter 1. Barbera
Audit A-04-06-07009
April 17, 2009
Page 2 of3


DHHS Response: Our response to the finding is indicated in the following narrative and
is based on the auditfindings ofprogram overpayments in the table below.


                             Total                               Item
       ITEMS                                      FMAP           Count
                          Overpayments
EDS Write OffCFS
Line 20                     $ 95,759.33        $ 60,549.02        422

EDS Correction Write
Offs CFS Line 21           $ 686,954.57        $437,109.19          1
EDS System 12-31-05
ARs                        $ 34,091.93         $ 21,653.34        326
TOTAL                      $ 816,805.83        $519,311.56

Ofthe $816,805.83 which had been identified as Medicaidprovider overpayments, the
NCDHHS found that one item for $686,954.57 associated with Electronic Data Systems
(EDS) Correction Write offs on the Checkwrite Financial Summary (CFS) on line 21 has
been collected and remitted to the Federal government by offset through the weekly check
write amount. The $686,954.67 was associated with a single patient at the Dorothea Dix
Hospitalfor an admissionfrom February 11,2003 through July 7,2004. Due to the
method by which lengthy stays are billedfor our institutions, the $686,954.57 was written
offto bad debts prior to being recoupedfrom the provider. This situation was identified
as an error and the $686,954.57 was recouped on the Dorothea Dix Hospital remittance
advices (RA) on the dates and in the amounts indicated in the following table.

 AMOUNT RECOUPED                REMITTANCE DATE              REMAINING BALANCE
    $136.422.00                     10/31/2007                   $550,532.57
    $174,900.00                     11114/2007                   $375,632.57
    $173734.00                      11121/2007                   $201,898.57
    $140284.80                         12104/2007                 $61,613.77
     $53,636.00                        12/1112007                 $7977.77
     $7,977.77                         12120/2007                     $0


The remainder ofthe $816,805.83 identified consisted of 748 items totaling $129,851.26.
This amount wasfurther broken down into $95, 759. 33for EDS Write offs in the CFS on
line 20 and the $34,091.93 identified as EDS System 12-31-2005 Accounts Receivable.
The NCDHHS agrees that the federal share in the amounts indicated are due back to
CMS if they have not already been adjusted NCDHHS and the fiscal agent are
investigating these 748 accounts receivable items, many ofwhich are less than $10, to
ensure they have not already been recouped and the federal share has not been returned.
                                                                       APPENDIX
                                                                        Page 3 of 3

Mr. Peter 1. Barbera
Audit A-04-06-07009
April 17, 2009
Page 3 of3


 The NCDHHS agrees with the audit report that the Federal share ofoverpayments must
 be credited back on the CMS-64 reportfor the quarter in which the 60-day period
following discovery ends, regardles ofwhether or not the State has recovered the
overpaymentfrom the provider.

The NCDHHS is coordinating a full review ofour process with the DHHS Controller's
Office, DMA staff, EDS (fiscal agent) staffand the Attorney General's Office to ensure
that we have a thorough process to comply with the law. We will implement any
additional written procedures neededfor reporting and writing offMedicaid
overpayments and related system processes to eliminate these occurrences in the future
and correct any errors that we find on the next CMS-64 report.

NCDHHS certainly appreciates the professionalism of the audit staffthat conducted this
audit and lookforward to contimling to work with CMS staffto have an exemplary
Medicaid administrative system in North Carolina.


                                            Sincerely,



                                  C/.!::c:;~~
cc:   Dan Stewart, CPA
      Allen Feezor
      Tara Larson
      Steve Owen
      Eddie Berryman, CPA
      Laketha M. Miller, CPA
      Honorable Beth Wood, CPA
                             Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. ' 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
